TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Collection Actions Were Not
                    Always Pursued on Cases Returned From
                      the Private Debt Collection Program



                                      September 27, 2011

                              Reference Number: 2011-30-114




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


COLLECTION ACTIONS WERE NOT                           TIGTA reviewed a statistical sample of 62 cases
ALWAYS PURSUED ON CASES                               returned in Fiscal Year 2009 and found that
RETURNED FROM THE PRIVATE DEBT                        collection actions were not taken for 29
COLLECTION PROGRAM                                    (47 percent) of the 62 cases. These cases
                                                      were not selected for collection action due to
                                                      Collection policies and inventory assignment
Highlights                                            practices. TIGTA estimates that potentially
                                                      $30.7 million in collections will remain as
                                                      outstanding liabilities. TIGTA also estimates the
Final Report issued on                                IRS may not collect an additional $103.2 million
September 27, 2011                                    per year, or $516 million over the next five
                                                      years, from similar cases in its inventory that
Highlights of Reference Number: 2011-30-114           would have been assigned to the PDC Program.
to the Internal Revenue Service Commissioner
for the Small Business/Self-Employed Division.        TIGTA also reviewed a statistical sample of
                                                      installment agreement cases returned during
IMPACT ON TAXPAYERS                                   Fiscal Year 2009 and determined no collection
The Private Debt Collection (PDC) Program             actions were taken for six (10 percent) of
collected approximately $98.2 million from            61 cases reviewed. TIGTA estimates that
delinquent cases that were considered low yield       potentially $58,000 in collections will remain as
and generally not worked by the IRS. In March         outstanding liabilities. Finally, the IRS did not
2009, the IRS Commissioner discontinued the           capture or use PDC Program data and results to
PDC Program, and cases that were assigned to          improve its own collection practices.
the private collection agencies were returned to      WHAT TIGTA RECOMMENDED
the IRS. However, the IRS’s collection policies
and inventory assignment practices will prevent       TIGTA recommended that the IRS 1) ensure
many of these delinquent accounts, and similar        Collection policy and procedures are reviewed
accounts in the IRS’s current inventory, from         for inventory assignment practices to determine
being worked. Taxpayers who do not voluntarily        if cases that would have been assigned to the
pay their share of taxes create unfair burden on      PDC Program can be worked, or consider
taxpayers who timely pay their taxes in full and      reinstituting the Program; and 2) evaluate
can diminish the public’s respect for the tax         private collection agency best practices and
system.                                               lessons learned for potential improvement of
                                                      IRS collection processes.
WHY TIGTA DID THE AUDIT
                                                      In their response to the report, IRS officials
This audit was included in our Fiscal Year 2010       partially agreed with the recommendations and
Annual Audit Plan and addresses the major             stated they began taking steps to address
management challenge of Tax Compliance                TIGTA’s concerns. The IRS implemented a
Initiatives. The overall objective was to             process to improve balance due case
determine the effectiveness of collection actions     prioritization and reviewed collection agency
taken by the IRS on taxpayer accounts returned        operations to identify potential best practices.
from the PDC Program.
                                                      TIGTA is encouraged by the IRS’s commitment
WHAT TIGTA FOUND                                      to improving case selection and prioritization
                                                      processes. However, it is still unclear how the
The IRS took appropriate collection actions on
                                                      IRS would actually work lower priority cases like
cases returned from the PDC Program in Fiscal
                                                      those eligible for the Program.
Year 2007. The Fiscal Year 2007 recall
included procedures that required employees to        IRS officials disagreed with the outcome
work each case that was returned. However,            measures. TIGTA maintains the outcome
many of the cases returned in a larger recall in      measures are reasonable and are based on
Fiscal Year 2009 were not worked.                     actual PDC Program results.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 27, 2011


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Collection Actions Were Not Always Pursued on
                             Cases Returned From the Private Debt Collection Program
                             (Audit #201030016)

 This report presents the results of our review to determine the effectiveness of collection actions
 taken by the Internal Revenue Service (IRS) on taxpayer accounts returned from the Private Debt
 Collection Program. This audit was included in our Fiscal Year 2010 Annual Audit Plan and
 addresses the major management challenge of Tax Compliance Initiatives.
 In their response to the report, IRS management stated that our characterization of many of the
 cases returned from the Private Debt Collection Program as not worked is misleading.
 Management stated IRS systemic actions were often used while the cases were with the private
 collection agencies (PCA) and continued even after cases were returned from the PCAs into IRS
 inventory. However, systemic actions are mostly notices mailed to taxpayers, searches for
 Federal payments, and credits of current refunds against prior tax liabilities. Furthermore, these
 systemic actions are taken regardless of assignment to the PCAs. Therefore, for the purposes of
 this review, we compared the collection actions taken by PCA employees to those taken by IRS
 employees. We did not consider a case actually worked unless it was assigned to an employee
 and collection actions were taken by that employee. Cases have a higher probability of
 collection when taxpayers are contacted. Management’s complete response to the draft report is
 included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations.
 Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
 Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.
                              Collection Actions Were Not Always Pursued on
                          Cases Returned From the Private Debt Collection Program




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Private Debt Collection Program Collected Millions in Revenue ......... Page 4
          Appropriate Collection Actions Were Taken on Cases Returned From
          the Private Debt Collection Program in Fiscal Year 2007 ............................ Page 7
          Several Cases Returned During Fiscal Year 2009 Were Not Selected
          for Collection Actions .................................................................................. Page 7
                    Recommendation 1:........................................................ Page 11

          Industry Practices Were Not Used to Improve Internal Revenue
          Service Collection Efforts ............................................................................ .Page 12
                    Recommendation 2:........................................................ Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 18
          Appendix III – Report Distribution List ....................................................... Page 19
          Appendix IV – Outcome Measures............................................................... Page 20
          Appendix V – Glossary of Terms ................................................................. Page 23
          Appendix VI – Management’s Response to the Draft Report ...................... Page 24
           Collection Actions Were Not Always Pursued on
       Cases Returned From the Private Debt Collection Program




                    Abbreviations

ACS           Automated Collection System
FY            Fiscal Year
IDRS          Integrated Data Retrieval System
IRS           Internal Revenue Service
PCA           Private Collection Agency
PDC           Private Debt Collection
                            Collection Actions Were Not Always Pursued on
                        Cases Returned From the Private Debt Collection Program




                                              Background

To help address the Internal Revenue Service’s (IRS)
                                                                              In July 2004, the Department
gross accounts receivable1 of over $300 billion, the                            of the Treasury estimated
Department of the Treasury proposed that Congress pass                          that the IRS would collect
legislation authorizing the IRS to use private collection                        $1.4 billion over the next
agencies (PCA) to help collect tax debts for simpler types                       10 years by using PCAs.
of cases.2
On October 22, 2004, the President signed The American Jobs Creation Act3 that created a new
Internal Revenue Code Section 6306 (2004) to permit PCAs to help collect Federal tax debts.
The law allows PCAs to locate and contact any taxpayer specified by the IRS, request from such
taxpayer full payment of the amount of Federal tax due, and obtain financial information with
respect to such taxpayer. The law allows the IRS to pay each PCA up to 25 percent of the
amount they collect. The IRS is allowed to retain up to 25 percent of the amount collected for
IRS collection enforcement activities. The IRS refers to this effort as the Private Debt Collection
(PDC) Program (hereafter referred to as the PDC Program or the Program). In July 2004, the
Department of the Treasury estimated the IRS would collect $1.4 billion over 10 years (Fiscal
Years (FY) 2006–2015) by using PCAs.
The IRS established three main objectives for the Program:
    •    Help significantly reduce the growing number of uncollected tax liabilities.
    •    Help maintain taxpayer confidence in the fairness of the tax system by assisting the IRS
         in addressing more of its delinquent accounts.
    •    Assist the IRS in its continued focus to dedicate existing collection and enforcement
         resources on more difficult cases and issues.
The PCAs are assigned cases that the IRS would otherwise be unable to work because of its
limited resources.
On September 7, 2006, the IRS placed an initial inventory of 11,562 balance due accounts with
3 PCAs. The IRS assigned two types of cases to the Program.
    •    From September to December 2006, the IRS assigned cases that involved an individual
         taxpayer with a balance due for one tax module and an amount due of $25,000 or less.


1
  See Appendix V for a glossary of terms.
2
  Simpler types of cases are those in which the taxpayer has filed all tax returns due.
3
  Pub. L. No. 108-357, 118 Stat. 1418 (2004).
                                                                                                         Page 1
                           Collection Actions Were Not Always Pursued on
                       Cases Returned From the Private Debt Collection Program



    •   From January 2007 to February 2009, the IRS assigned cases that involved an individual
        taxpayer with a balance due for one or more tax periods and an amount due of $100,000
        or less.
From September 2006 through February 2009, the IRS assigned 203,800 accounts with
357,449 tax modules and a total assessed balance of $1.6 billion to PCAs.4 Fifty-one percent of
the tax modules (180,846 modules) were assigned during FY 2008. Figure 1 shows the number
of tax modules assigned each year. The IRS planned to increase assignment to 249,000 modules
with a total assessed balance due of $1.1 billion to the Program each year beginning in FY 2010.
As of September 2009, 79,9165 (22 percent) of the 357,449 tax modules assigned to the Program
were resolved as fully paid.
             Figure 1: Number of Tax Modules Assigned to Program by FY6




              Source: Private Debt Collection Reports for FYs 2006–2009.

One of the PCA’s contracts ended in March 2007, but the IRS renewed the contracts for the other
two PCAs twice. However, on March 5, 2009, when the two remaining contracts were about to
end, the IRS Commissioner decided to discontinue the Program and announced that the contracts
with the remaining two PCAs would not be renewed. The Commissioner cited the following
reasons as the basis for his decision.




4
  Filing and Payment Compliance, Private Debt Collection Advisory Briefing, dated April 20, 2009.
5
  Of the 79,916 tax modules resolved as full paid, the IRS reported 56,810 of the resolved tax modules were resolved
while assigned to the PCAs, of which 14,113 were from commissionable payments.
6
  The Program was discontinued during FY 2009; cases were assigned to the Program from
October 1 through March 5, 2009, prior to program discontinuation.


                                                                                                           Page 2
                         Collection Actions Were Not Always Pursued on
                     Cases Returned From the Private Debt Collection Program



    •   A cost-effectiveness study of the Program,7 conducted by
        the IRS and supported by an independent review, showed
        that it is reasonable to conclude that when working similar                 On March 5, 2009,
                                                                                  the IRS Commissioner
        inventory, IRS employees are more cost effective than                     decided to discontinue
        PCAs. (Notably, the Government Accountability Office                        the PDC Program.
        recently reported that this IRS study was not soundly
        designed to support a decision about whether to continue the
        Program.)8
    •   IRS employees have a wide range of options to resolve difficult collection cases that, by
        law, are not available to the PCAs. The IRS anticipated an increase in the number of
        tough collection situations in the months ahead, and believed its employees were in the
        best position to work with taxpayers and resolve their issues. (However, this belief
        assumes IRS employees will actually work the cases.)
    •   The IRS anticipated hiring more than 1,000 Collection function employees in FY 2009,
        which would give the IRS more flexibility to make assignments based on the areas of
        greatest need rather than filtering limited cases through PCAs. (The IRS hired over 1,500
        new revenue officers between June 2009 and February 2010 and opened a new
        Automated Collection System (ACS) site with 120 employees in July 2010. However,
        based on current case selection and prioritization methods, it is unlikely that the new
        revenue officers or ACS site will be assigned the types of cases that were worked by the
        agencies. Revenue officers and ACS employees are generally assigned higher priority
        cases.)
Although the IRS discontinued the Program, the IRS is still authorized to enter into contracts
with PCAs under the Internal Revenue Code. To remove this authority, legislation would need
to be passed by Congress and signed by the President.
This review and data analyses were performed in the Small Business/Self-Employed Division
Headquarters Office in New Carrollton, Maryland, during the period June 2010 through
March 2011. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.


7
 IRS Employees More Flexible, More Cost Effective (IR-2009-19, dated March 5, 2009).
8
 IRS Could Improve Future Studies by Establishing Appropriate Guidance (Government Accountability Office
10-963, dated September 2010).
                                                                                                     Page 3
                           Collection Actions Were Not Always Pursued on
                       Cases Returned From the Private Debt Collection Program




                                      Results of Review

The PDC Program collected millions in revenue from cases that were considered low yield and
generally not worked by the IRS.9 When the Commissioner discontinued the Program, accounts
that were assigned to the PCAs were returned to the IRS. The IRS did not always pursue
collection actions on cases returned from the PDC Program or analyze the best practices of the
PCAs for possible improvement of IRS collection practices.

The Private Debt Collection Program Collected Millions in Revenue
The PDC Program collected $98.2 million10 from cases that were considered low yield and
generally not worked by the IRS. After paying $16.5 million in commissions and closeout costs
to the PCAs, nearly $82 million was identified as net revenue, of which $18.3 million was
retained by the IRS and approximately $63.4 million went to the U.S. Department of the
Treasury. As of September 2009, 79,916 (22 percent) of the 357,449 tax modules assigned to the
Program were resolved as fully paid.
According to data provided by IRS management, the operating costs of the PDC Program were
$47.2 million,11 consisting of:
     •   IRS internal program costs of $30.7 million.
     •   Commissions paid to PCAs of $16.5 million.
The IRS internal program costs include IRS personnel assigned to this Program as well as the
information technology infrastructure that selected and assigned the cases to the PCAs. Figure 2
shows the IRS internal costs ranged from $13.8 million in FY 2007 to $5.7 million in FY 2009.




9
  Some of the cases assigned went through the IRS notice process and search for levy sources.
10
   The PCAs were paid commissions on $70.1 million of the $98.2 million in collections.
11
   The $47.2 million is for FYs 2007 through 2009 and does not include IRS internal program startup costs of
$55.4 million which occurred prior to FY 2007. The PDC program became operational in September 2006.
                                                                                                           Page 4
                          Collection Actions Were Not Always Pursued on
                      Cases Returned From the Private Debt Collection Program



      Figure 2: IRS Internal Operating Costs of Program by Category and FY12




          Source: IRS management provided the cost data, which have not been validated by the
          Treasury Inspector General for Tax Administration.

The expenses in FY 2007 included information technology infrastructure startup costs.13 Internal
program costs decreased during the Program as the need for information technology
development and enhancements decreased.
The PDC Program was designed to eventually fund itself, while aiding the IRS in collecting a
larger portion of the delinquent accounts. The law allowed the IRS to retain an amount not in
excess of 25 percent of the amount collected for collection enforcement activities and to pay an
amount not in excess of 25 percent of the amount collected by each PCA for the cost of services
performed under a contract. The remaining 50 percent was to be paid to the U.S. Department of
the Treasury. Figure 3 shows the percentage of revenue that was allowed to be distributed
compared with the percentage actually distributed.




12
   The IRS internal costs were funded through appropriated funds through FY 2009. After the signing of the
Omnibus Appropriations Act of 2009, Pub. L. No. 111-8, 123 Stat. 524 (March 11, 2009), expenses associated with
the PDC program were funded through user fees. However, for purposes of our review, they are included to
determine if the Program was able to fund itself without IRS funds.
13
   Startup costs included program changes for the inventory selection process.
                                                                                                        Page 5
                             Collection Actions Were Not Always Pursued on
                         Cases Returned From the Private Debt Collection Program



     Figure 3: Allowed and Actual Distribution of Funds Collected by the Program14

                      Allowed Distribution of Funds                     Actual Distribution of Funds




Source: Private Debt Collection Initiative Briefing, September 8, 2006, and Filing and Payment Compliance,
Private Debt Collection Advisory Council Briefing, October 19, 2009.

Notably, even though the IRS retained $18.3 million from PDC Program receipts, PDC Program
internal costs were funded separately from the IRS’s regular operating budget. However, if the
internal costs were paid from PDC Program collections, the Program would have met the design
objective of collecting enough revenue to fund itself in FYs 2007–2009. Figure 4 shows the
funds that would have been available to the IRS and the Department of the Treasury if all
operating costs were funded from Program collections.
                   Figure 4: Funds Available to the U.S. Treasury and the IRS
                    if Internal Costs Were Funded by the Program (in millions)




      Source: Private Debt Collection Reports for FYs 2007–2009 and cost data were obtained from IRS
      management and have not been validated by the Treasury Inspector General for Tax Administration.




14
     PCA fees are commissions paid for the cost of services performed under a contract.
                                                                                                         Page 6
                          Collection Actions Were Not Always Pursued on
                      Cases Returned From the Private Debt Collection Program



The PDC Program collected $31 million, $37 million, and $29 million in FYs 2007, 2008, and
2009, respectively.15 The net funds available to the U.S. Treasury would have been $6 million,
$13 million, and $13 million for those same years.

Appropriate Collection Actions Were Taken on Cases Returned From
the Private Debt Collection Program in Fiscal Year 2007
On March 7, 2007, the IRS discontinued one of the PCA contracts and performed a mass recall
from the PCA of 8,395 tax modules with a total assessed balance of approximately $53.5 million.
We reviewed a statistical sample of 110 tax modules from this population to determine what
collection actions were taken by the IRS after the accounts were returned. We determined the
IRS properly reviewed these cases and, when applicable, took appropriate collection action.
The FY 2007 recall process was well organized, with special procedures for processing the cases
returned from the PDC Program. The IRS issued letters to taxpayers informing them that their
cases had been transferred back to the IRS and providing them with a phone number to contact
the IRS referral unit. The referral unit sorted the cases by type and taxpayer involvement. The
PCA provided historical case information for all of the accounts returned. The recall process
required the referral unit to review each case history and properly code, research, and work the
cases as appropriate. This process also required IRS employees to review and/or work many
cases that would not have been assigned with regular inventory assignment practices. As of
September 2009, 2,701 (32 percent) of 8,395 tax modules returned were resolved as fully paid
with collections of $12.5 million. These resolved tax modules are not included as part of the
Program results because they were resolved while being worked by the IRS.

Several Cases Returned During Fiscal Year 2009 Were Not Selected
for Collection Actions
When the PDC Program was discontinued in March 2009, the IRS recalled 192,713 tax modules
with a total assessed balance of $848.5 million from the PCAs. Due to the volume of cases, the
IRS did not use the same recall process it used in FY 2007, which required IRS employees to
handle every case that was returned. The IRS conducted a phased recall process beginning
March 19, 2009, in which a group of cases were returned each week through July 16, 2009. The
PCAs were allowed to work the cases until recalled and were allowed to retain the installment
agreement cases until the last 2 weeks of the phased recall process.




15
  An additional $1 million was collected in FY 2006, when the Program was only in operation for the last month of
the year.
                                                                                                          Page 7
                             Collection Actions Were Not Always Pursued on
                         Cases Returned From the Private Debt Collection Program



During this recall process, the PCAs classified the accounts into one of four categories:
       •   Suspended Accounts (Category 1) – A condition is present that requires the PCA to
           suspend collection activity, such as bankruptcies, disputes, and disasters.
       •   Installment Agreement Accounts (Category 2) – The account is currently in an active or
           pending installment agreement.
       •   Serviced Accounts (Category 3) – Current activity indicates contact is probable or
           taxpayer contact has occurred.
       •   Minimally Serviced Accounts (Category 4) – Minimal to no contact has been made with
           the taxpayer (for example, skip tracing efforts were not productive or mail was
           undeliverable).
The PCAs provided historical case information for suspended, installment agreement, and
serviced accounts. No historical case information was provided for minimally serviced accounts.
Approximately 72 percent of the cases returned from the Program were classified as minimally
serviced accounts. Initially, the referral unit reviewed all cases returned from the Program for
distribution. Subsequently, a systemic case distribution process was developed and used for the
minimally serviced accounts.
We reviewed a statistical sample of 62 cases from a population of 192,713 cases returned in
FY 2009. Overall, we determined that the IRS did not always pursue collection actions on cases
returned from the Program. Specifically, our analysis showed:
       •   30 (48 percent) of the 62 cases had some type of collection action16 taken by the IRS.
           However:
           •    25 cases were unresolved and will require additional collection actions.
           •    5 cases were resolved, of which 4 were full paid and ********1**************
                **********1**********.
       •   29 (47 percent) of the 62 cases had no collection action taken by the IRS.
           •    26 cases were not assigned to be worked based on inventory assignment practices and
                business rules. **************1******************************* and 4 were
                shelved due to lack of resources.
           •    3 cases were assigned to be worked; however, ACS processing did not select the
                cases for collection action. ******************1*************************
                **************1*********************.



16
     Some of the cases assigned went through the IRS notice process and search for levy sources.
                                                                                                   Page 8
                            Collection Actions Were Not Always Pursued on
                        Cases Returned From the Private Debt Collection Program



     •   3 (5 percent) of the 62 cases required no further collection action by the IRS because the
         taxpayers took voluntary actions and fully paid the accounts.
The IRS applied its standard balance due account business rules to the accounts returned from
the Program in FY 2009 to determine if a case should be assigned to the ACS to work. When
cases are not assigned to be worked, they will likely not be resolved. However, cases assigned to
the ACS are not automatically selected for collection actions. The ACS is designed for systemic
next-case processing, which allows the system to select cases to be worked by priority.
The 29 cases with no collection action taken by the IRS had a total assessed balance of $105,412
($1,700 per case). Based on our statistically valid sample and the actual collection rate of
9.3817 percent, we project that approximately $30.7 million18 of potential collections will remain
as outstanding liabilities. We are 95 percent confident that the range of potential collections is
between $14 million and $47 million.
The IRS planned to increase the tax modules assigned with the PCAs to 249,000 modules with a
total assessed balance of $1.1 billion each year beginning in FY 2010. As of March 2011, the
IRS tax debt inventory included approximately 1.5 million unassigned accounts, with a total
outstanding balance of approximately $3.5 billion that are similar to the accounts that were
assigned to the PDC Program. Approximately 349,000 of these unassigned accounts, with a total
outstanding balance of approximately $1.2 billion, have already been shelved due to lack of IRS
resources.
Projecting the actual collection rate of 9.38 percent to total assessed balance of $1.1 billion
assigned to the PDC Program per year results in approximately $103.2 million19 in potential
collections of outstanding liabilities per year, or $516 million over the next 5 years. With the
PDC Program discontinued, the IRS lacks the resources to actively work and collect the
delinquent taxes associated with these cases.

Installment agreement cases were not always worked
The primary method the PCAs used for resolving balance due accounts was telephone contact
with the taxpayers. When telephone contact was made, the PCAs were required to request full
payment on the account. If the taxpayer could not fully pay the account, the PCAs were required
to verify the taxpayer’s filing compliance. If the taxpayer was not in filing compliance, the
PCAs requested the taxpayer to file delinquent returns with the IRS. When the taxpayer was in
filing compliance, the PCAs could work with the taxpayer to set up an installment agreement.


17
   The PCAs were paid commissions on $70.1 million of the $98.2 million in collections.
18
   This projection is potential collections of outstanding liabilities and does not include the IRS’s internal costs or
collection agency commissions. See Appendix IV for details on the computation of the outcome measure.
19
   This projection is potential collections of outstanding liabilities and does not include the IRS’s internal costs or
collection agency commissions. See Appendix IV for details on the computation of the outcome measure.
                                                                                                                  Page 9
                       Collection Actions Were Not Always Pursued on
                   Cases Returned From the Private Debt Collection Program



The PCAs monitored installment agreements by sending the taxpayers monthly reminder notices
and calling the taxpayer to remind them a payment was due.
The PCAs were allowed to retain and work installment agreement cases until these cases were
recalled to the IRS the last 2 weeks of the phased recall process (weeks of July 9 and 16, 2009).
The referral unit was required to review all installment agreement cases returned from the
Program to determine if the installment agreements were current. If an agreement was current,
the referral unit mailed a letter to the taxpayer with the terms of the installment agreement and
updated an IRS computer system to send a monthly reminder notice. These cases were
considered “active” installment agreements. If the taxpayer continued making payments, no
other collection actions were required by the IRS.
If the referral unit determined an installment agreement was not current, it terminated the
installment agreement and applied the same business rules for case distribution within the IRS.
These cases were considered “inactive” installment agreements.
We selected a statistical sample of 61 tax modules from a population of 2,545 installment
agreement tax modules to determine the collection actions taken by the IRS after the accounts
were returned from the Program. We determined that the IRS did not take required collection
actions on 6 (10 percent) of the 61 cases.
   •   Three active installment agreement cases did not have additional collection actions taken
       when the taxpayers stopped making payments. Specifically:
       •   *******************************1**********************************
           ***************************1****************************************
           *************************1********************
       •   *****************************1*************************************
           ********************************1*******************************
           ********************************1************************************
           **************************1***********************.
   •   Three inactive installment agreement cases did not have additional collection actions
       taken. Specifically:
       •   ********************************1**********************************
           **************************1*******************.
       •   *********************************1*********************************
           **************************1************************************.
When cases are not assigned to be worked, they will likely not be resolved. For these 6 cases,
the assessed balances totaled $14,968 (an average of $245 for 61 cases reviewed). Based on our
statistically valid sample and the actual collection rate of 9.38 percent, we project that

                                                                                          Page 10
                            Collection Actions Were Not Always Pursued on
                        Cases Returned From the Private Debt Collection Program



approximately $58,00020 of potential collections will remain as outstanding liabilities, and we are
95 percent confident that the range is between $4,000 and $150,000.
It is clear that the Federal Government benefited from PCAs working these lower priority cases.
Although IRS management believes its employees are more cost effective than the PCAs at
collecting the outstanding balances on these accounts, this point is only valid if the IRS uses its
resources to work these cases in addition to those that are already being worked as higher priority
cases. However, as of the end of our fieldwork, our audit results show that the IRS has been
unable to work many of these cases.

Recommendation
Recommendation 1: The Director, Collection, Small Business/Self-Employed Division,
should ensure collection policy and procedures are reviewed for inventory assignment practices
to determine if cases that otherwise would have been assigned to the PDC Program can be
worked. Alternatively, the IRS should consider reinstituting the PDC Program and funding all
Program costs through Program collections.
         Management’s Response: IRS management partially agreed with this
         recommendation. In FY 2011, the IRS implemented Consolidated Decision Analytics to
         improve balance due case selection and prioritization for the ACS. The Consolidated
         Decision Analytics system uses decision analytics and modeling to prioritize cases with
         the best potential for collection for ACS and Field Collection. The IRS will continually
         review the performance of the Consolidated Decision Analytics models and their output
         for potential improvement.
         IRS management did not agree with the outcome measures. They believe TIGTA's
         methodology inflates the potential future collection rate for accounts worked through the
         PDC program. IRS management stated that the methodology assumes future collection
         rates that are unsupported by actual results, and excludes potential revenue collections
         that may result from the IRS working these accounts in the future.
         Office of Audit Comment: We are encouraged with the IRS’s commitment to
         reviewing and improving case selection and prioritization processes. However, while the
         Consolidated Decision Analytics may prioritize inventory that would have been eligible
         for the PDC Program , it is still unclear how the IRS would actually work those types of
         cases.
         The outcome measures were based on the actual PDC Program collection rate and the
         actual volume of cases the IRS planned to assign to the Program. The actual results of
         the PDC Program showed that the PCAs collected 9.38 percent of the liabilities worked.

20
  This projection is potential collections of outstanding liabilities and does not include the IRS’s internal costs or
collection agency commissions. See Appendix IV for details on the computation of the outcome measure.
                                                                                                               Page 11
                           Collection Actions Were Not Always Pursued on
                       Cases Returned From the Private Debt Collection Program



        IRS documentation showed that the Program was to be expanded to 249,000 cases with
        liabilities of $1.1 billion per year in FY 2010.

Industry Practices Were Not Used to Improve Internal Revenue
Service Collection Efforts
The American Jobs Creation Act, which created the Internal Revenue Code to permit PCAs to
help collect Federal tax debts, required the IRS to report on the collection contracts biennially
(beginning in FY 2005) to the Committee on Finance of the Senate (Senate) and the Committee
on Ways and Means of the House of Representatives (House). This report was to include a
comparison of the best practices used by the PCAs with the IRS’s own collection techniques and
identification of successful collection techniques used by the PCAs which could be adopted by
the IRS. However, the IRS did not capture or use PDC Program data and results to improve IRS
collection practices. Instead, the IRS prepared briefing documents to the Senate and House to
provide updates on the PDC Program. The briefing documents did not include the required
comparison of PCA best practices to IRS operations.
Cases have a higher probability of collection when taxpayers are contacted. The PCAs’ primary
method of collection is focused on taxpayer contact. The PCAs had the resources available to
make initial and follow-up taxpayer contacts. However, the IRS’s primary collection method on
these accounts is systemic.21 The IRS does not have the resources for taxpayer contact on
low-yield cases.
The IRS interviewed PCA and ACS employees, reviewed PCA operation plans and the Internal
Revenue Manual, and reviewed IRS and PCA practices. IRS management stated that they did
not find an opportunity to adopt a process similar to those used by the PCAs. However, the
information the IRS obtained from the PCAs primarily focused on improving current
PDC Program operations and determining training needs. This information did not include data
to identify PCA best practices that could improve IRS collection practices. As a result, the IRS
lost the opportunity to use the results and lessons learned from the PDC Program to make
changes to its existing collection assignment practices and improve IRS operations. In addition,
the IRS is not compliant with reporting requirements of the American Jobs Creation Act.

Recommendation
Recommendation 2: The Director, Collection, Small Business/Self-Employed Division,
should evaluate PCA best practices and lessons learned, including the use of increased personal
contact, to determine whether they can help improve IRS collection processes.


21
  The IRS sends notices to the taxpayer about the delinquency. After the notices are issued, the IRS searches for
levy sources.
                                                                                                           Page 12
                Collection Actions Were Not Always Pursued on
            Cases Returned From the Private Debt Collection Program



Management’s Response: IRS management agreed with this recommendation. The
IRS reviewed the operations of two private collection agencies that supported the PDC
Program to identify potential best practices that could be adopted to improve IRS
collection practices. They interviewed PCA employees to understand their collection
processes and to identify innovative practices. The IRS also reviewed PCA operational
plans and guidance, which contained workflow diagrams and descriptions of their
collection tools and techniques. The IRS will continue to study best practices in both the
public and private sectors.




                                                                                  Page 13
                             Collection Actions Were Not Always Pursued on
                         Cases Returned From the Private Debt Collection Program



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine the effectiveness of collection actions taken by the IRS
on taxpayer accounts returned from the PDC Program. During the review, we relied on data
provided by the IRS. We evaluated the reasonableness of the data through comparison to the
Integrated Data Retrieval System (IDRS)1 and a data extract obtained by the Treasury Inspector
General for Tax Administration Information Services Team. To accomplish our objective, we:
I.         Evaluated the PDC Program to determine the results of the Program.
           A. Interviewed management on the PDC Program to determine:
               1. The current status and plans, if any, for the PDC Program to be reinstated within
                  the IRS.
               2. Research studies conducted on the PDC Program within and for the IRS, if any,
                  and conclusions reached from these studies.
               3. The collection inventory assignment practices within the IRS and the criteria used
                  (including whether these assignment practices include the types of cases assigned
                  to PCAs).
               4. The collection actions taken on taxpayer accounts returned to the IRS from PCAs
                  when the Program ended.
           B. Obtained PDC Program statistics and identified:
               1. The number of taxpayer modules and taxpayer entities assigned to the Program
                  and related dollar amounts.
               2. The number of full paid modules and dollar amounts.
               3. The number of installment agreement modules and dollar amounts.
               4. The number of recalled modules and dollar amounts to exclude these accounts
                  from further analysis.
               5. A collection rate for the Program.
               6. The installment agreement default rate for the Program.
               7. The costs charged to the Program.

1
    See Appendix V for a glossary of terms.
                                                                                             Page 14
                      Collection Actions Were Not Always Pursued on
                  Cases Returned From the Private Debt Collection Program



      C. Based on results of Steps I.A and I.B, determined the overall results of the Program.
         1. Determined whether the Program brought in more than it cost.
         2. Determined whether the PDC Program was as productive as the IRS is or will be
            for similar cases.
II.   Evaluated the collection actions taken by the IRS on taxpayer accounts returned from the
      PDC Program and determined the effectiveness of the collection actions.
      A. Obtained statistics on taxpayer accounts returned and determined the current status of
         the accounts.
         1. Obtained a listing of the taxpayer accounts returned to the IRS and determined the
            status of these accounts when returned to the IRS and the dollar amounts collected
            and outstanding when the PDC Program ended.
         2. Ran a query on the listing obtained from the IRS and determined the current status
            for the taxpayer accounts returned to the IRS since the Program ended. We
            identified the number of returned taxpayer accounts:
             a) Full paid and the related dollar amounts.
             b) Under installment agreements and the related dollar amounts.
             c) Closed as uncollectible and the related dollar amounts.
             d) With subsequent modules with balance due accounts and the related dollar
                amounts.
      B. Determined whether collection actions taken by the IRS were effective.
         1. Selected statistical samples based on the population of taxpayer accounts returned
            from the PDC Program to review the collection history and determine the
            collection actions, if any, taken on the accounts by the IRS after they were
            returned. We validated the reliability of the data for each sample by comparing
            the data to the information available through research of the IDRS. We selected
            statistical samples to be able to quantify and project our results to the population.
             a) Sample 1 – Population of Recalled Accounts in March 2009 – Selected a
                statistically valid sample of 62 taxpayer modules that were assigned to the
                2 remaining PCAs as of March 19, 2009. This sample was randomly selected
                from a population of 192,713 taxpayer modules returned from the Program
                during a phased recall from March 19 through July 16, 2009. The statistical
                sample was based on a 95 percent confidence level, a ± 10 percent precision
                level, and a 20 percent expected error rate.


                                                                                         Page 15
                       Collection Actions Were Not Always Pursued on
                   Cases Returned From the Private Debt Collection Program



              b) Sample 2 – Population of Recalled Accounts in March 2007 – Selected a
                 statistically valid sample of 62 taxpayer modules that were assigned to 1 PCA
                 as of March 6, 2007 (the PCA whose contract was not renewed). This sample
                 was randomly selected from a population of 8,395 taxpayer modules returned
                 from the PDC Program during a mass recall on March 7, 2007. The statistical
                 sample was based on a 95 percent confidence level, a ± 10 percent precision
                 level, and a 20 percent expected error rate.
              c) Sample 3 – Population of Installment Agreement Cases Recalled in
                 July 2009 – Selected a statistically valid sample of 61 installment agreement
                 taxpayer modules that were recalled during the weeks of July 9 and 16, 2009.
                 This sample was randomly selected from a population of 2,545 taxpayer
                 modules returned from the PDC Program in July 2009. The statistical sample
                 was based on a 95 percent confidence level, a ± 10 percent precision level,
                 and a 20 percent expected error rate.
              d) Sample 4 – Population of Installment Agreement Cases Recalled in
                 March 2007 – Selected a statistically valid sample of 48 installment
                 agreement taxpayer modules that were recalled March 7, 2007. This sample
                 was randomly selected from a population of 214 taxpayer modules returned
                 from the PDC Program in March 2007. The statistical sample was based on a
                 95 percent confidence level, a ± 10 percent precision level, and a 20 percent
                 expected error rate.
          2. Determined whether the sample cases (Steps II.B.1.a and II.B.1.b) were within the
             PCA’s authority to work by determining whether each sample case aggregate
             entity balance was $25,000 or less.
          3. Determined if any collection actions taken by the IRS were limited to the
             collection actions as allowed by the PCAs (e.g., PCAs collection actions were
             limited to requesting full payment, setting up an installment agreement, or
             securing collection information statement data from taxpayers).
III.   Determined whether the IRS captured and used PDC Program data and results to help
       improve IRS collection practices. We evaluated and conducted various analyses to
       identify trends, inventory available, lessons learned, and best practices from the Program.
       A. Identified trends from the PDC Program and the taxpayer accounts returned to the
          IRS. We performed and conducted various analyses of the data provided from Step I
          to compare the PDC Program results to those the IRS achieved on taxpayer accounts
          returned to the IRS.




                                                                                          Page 16
                       Collection Actions Were Not Always Pursued on
                   Cases Returned From the Private Debt Collection Program



       B. Analyzed the Queue to identify the accounts closed as not collectible due to a lack of
          resources and determined the amount of inventory available and dollar amounts that
          would have been assigned to the PDC Program if the Program had continued.
       C. Interviewed IRS management to determine if the IRS identified any lessons learned
          or best practices from PCAs to use for other IRS programs. We obtained
          documentation of the lessons learned or best practices and:
           1. Reviewed it for completeness and usefulness.
           2. Determined who the lessons learned or best practices were communicated to and
              how they were used.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS and ACS inventory assignment
practices and business rules, and referral unit and PCA policy and procedure guides. We
evaluated these controls by interviewing IRS management, reviewing source materials, and
analyzing cases returned from the Program in a mass recall in March 2007 and a phased recall
from March through July 2009.




                                                                                         Page 17
                      Collection Actions Were Not Always Pursued on
                  Cases Returned From the Private Debt Collection Program



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit, Compliance and Enforcement
Operations
Carl L. Aley, Director
Glen Rhoades, Audit Manager
Christina Dreyer, Lead Auditor
Curtis Kirschner, Senior Auditor
Michele Strong, Senior Auditor
Frank Maletta, Auditor




                                                                                      Page 18
                     Collection Actions Were Not Always Pursued on
                 Cases Returned From the Private Debt Collection Program



                                                                          Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                Page 19
                            Collection Actions Were Not Always Pursued on
                        Cases Returned From the Private Debt Collection Program



                                                                                                    Appendix IV

                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Calculation of Program Collection Rate:
During the life of the Program, the IRS reported $98,228,905 in program funds collected, of
which $70,144,531 were commissionable payments. The IRS assigned to the Program
$1.635 billion in balance due accounts and with contract cancellations recalled $887 million
($53.5 million in a mass recall in FY 2007 when one PCA contract ended and $848.5 million in a
phased recall in FY 2009 when two PCA contracts ended, less $15 million resolved as full paid
by the PCAs during the phased recall). This resulted in $748 million in balance due accounts
worked by the PCAs ($1.635 billion less $887 million) and a collection rate of 9.38 percent
($70,144,531/$747,924,475) for the balance of the accounts.
During the life of the Program, the IRS reported it assigned 357,449 tax modules. With contract
cancellations 199,419 tax modules were recalled (8,395 mass recall in FY 2007 when one PCA
contract ended and 192,713 in a phased recall in FY 2009 when two PCA contracts ended less
1,689 resolved as full paid by the PCAs during the phased recall). This resulted in 158,030 tax
modules worked by the PCAs (357,449 less 199,419). The program received commissionable
payments of $70,144,531 on 14,113 tax modules (56,810 cases resolved less 42,697 refund
offset cases which did not qualify for PCA commissions). This resulted in a collection rate of
8.93 percent (14,113/158,030) for the tax modules.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; $30.7 million1 of potential collections from 8,049 taxpayers
    will remain as outstanding liabilities (see page 7).

Methodology Used to Measure the Reported Benefit:
We identified 192,713 tax modules recalled from the PDC Program during a phased recall from
March 19 through July 16, 2009, based on data provided by the IRS. From this population, we
selected a statistical sample of 62 cases using a confidence level of 95 percent, a precision level
of ± 10 percent, and an expected error rate of 20 percent.

1
 This projection is potential collection of outstanding liabilities and does not include the IRS’s internal costs or
collection agency commissions.
                                                                                                               Page 20
                            Collection Actions Were Not Always Pursued on
                        Cases Returned From the Private Debt Collection Program



We determined that for 29 cases, no collection actions have been taken since the cases were
returned from the PDC Program. More specifically, 26 of the 29 cases were not assigned to be
worked based on inventory assignment practices and business rules; 3 of the 29 cases have been
assigned to be worked, however, ACS processing has not selected the cases for collection action.
When cases are not assigned to be worked, accounts are potentially not resolved.
For these 29 cases, the assessed balances totaled $105,412. This results in an average of $1,700
per tax module ($105,412/62) and error rate of 46.8 percent (29/62). Projecting this average total
assessed balance per tax module, error rate, and the actual collection rate of 9.38 percent over the
population of 192,713 tax modules results in $30.7 million ($1,700 x 192,713 x 9.38 percent) or
8,049 tax modules (192,713 x .4677 x 8.93 percent) of potential collections that will remain as
outstanding liabilities due to IRS inventory assignment practices and a lack of resources. We are
95 percent confident that the range of tax modules is between 6,000 and 10,000 and the dollars
are between $14 million and $47 million.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; $58,0002 of potential collections for 22 taxpayers will remain
    as outstanding liabilities (see page 7).

Methodology Used to Measure the Reported Benefit:
We identified 2,545 installment agreement tax modules that were recalled from the
PDC Program the weeks of July 9 and 16, 2009, based on data provided by the IRS. From this
population, we selected a statistical sample of 61 installment agreement cases using a confidence
level of 95 percent, a precision level of ± 10 percent, and an expected error rate of 20 percent.
We determined that six cases required additional collection action.
For these 6 cases, the assessed balances totaled $14,968. This results in an average of $245 per
tax module ($14,968/61) and error rate of 9.84 percent. Projecting this average total assessed
balance per tax module, error rate, and actual collection rate of 9.38 percent over the population
of 2,545 tax modules results in approximately $58,000 ($245 x 2,545 x 9.38) or 22 tax modules
(2,545 x .0984 x 8.93 percent) of potential collections that will remain as outstanding liabilities
due to IRS inventory assignment practices and a lack of resources. We are 95 percent confident
that the range of tax modules is between 5 and 40 and the dollars are between $4,000 and
$150,000.

Type and Value of Outcome Measure:
Increased Revenue – Potential; $103.23 million in potential collection of outstanding liabilities;
$516 million over the next 5 years (see page 7).

2
 This projection is potential collection of outstanding liabilities and does not include the IRS’s internal costs or
collection agency commissions. Historic PDC program costs are identified on Page 4 of the report.
                                                                                                               Page 21
                            Collection Actions Were Not Always Pursued on
                        Cases Returned From the Private Debt Collection Program



Methodology Used to Measure the Reported Benefit:
As of September 2010, the IRS tax debt inventory included approximately 1.5 million
unassigned accounts that are similar to those that were assigned to the PDC Program. These
accounts have a total outstanding balance of approximately $3.5 billion, and 349,000 of these
unassigned accounts with a total outstanding balance of $1.2 billion have already been shelved
due to a lack of resources. We did not select a sample of this population.
The IRS’s initial plans were to increase the tax modules assigned to the PCAs to 249,000
modules with a total assessed balance of $1.1 billion each year beginning FY 2010. The IRS
assigned to the Program $1.635 billion in balance due accounts and with contract cancellations
recalled $887 million ($53.5 million in a mass recall in FY 2007 when one PCA contract
ended and $848.5 million in a phased recall in FY 2009 when two PCA contracts ended, less
$15 million resolved as full paid by the PCAs during the phased recall). This resulted in
$748 million in balance due accounts worked by the PCAs ($1.635 billion less $887 million) and
a collection rate of 9.38 percent ($70,144,531/$747,924,475).
Projecting the collection rate to the planned balance due placements results in $103.2 million
($1,100,000,000 x .0938) in potential collection of outstanding liabilities per year, which is
approximately $516 million over the next 5 years. With the PDC Program discontinued, the IRS
lacks the resources to actively work and collect on these cases.




3
 This projection is potential collection of outstanding liabilities and does not include IRS’s internal costs or
collection agency commissions.
                                                                                                               Page 22
                       Collection Actions Were Not Always Pursued on
                   Cases Returned From the Private Debt Collection Program



                                                                                  Appendix V

                                Glossary of Terms

Automated Collection System – A telephone contact system through which telephone assistors
collect unpaid taxes and secure tax returns from delinquent taxpayers who have not complied
with previous notices.
Business Rules – An activity based on the policies and practices of an organization that takes
place during the course of an organization’s business.
Gross Accounts Receivable – Includes all unpaid tax, with accrued penalties and interest, on
taxpayers’ delinquent accounts.
Installment Agreement – A method for taxpayers to pay tax liabilities by making regular
payments to the IRS over time rather than all at once.
Integrated Data Retrieval System – An IRS computer system capable of retrieving or updating
stored information; it works in conjunction with a taxpayer’s account records.
PCA Operation Plan – A PCA document that describes how the contractor will carry out its
duties under the Program contract.
Queue – An automated holding file for unassigned inventory of delinquent cases for which the
Collection function does not have enough resources to immediately assign the cases for contact.
Recalled Accounts – An action taken by the IRS to direct the PCAs to close accounts and return
them to the IRS in order to place them back into the flow of IRS processing.
Referral Unit – A unit of the PDC Program responsible for assigning cases to PCAs;
maintaining cases; recalling cases; responding to inquiries from taxpayers, PCAs, and IRS staff;
and handling taxpayer complaints.
Shelved Cases – Delinquent unpaid accounts or investigations of unfiled tax returns that have
been taken out of the Collection function inventory because they are of lower priority than other
available inventory.
Skip Tracing – The process to locate a new address whenever a taxpayer cannot be located at
the address provided by the IRS.
Tax Module (or Period) – Refers to each tax return filed by the taxpayer for a specific period
(year or quarter).



                                                                                          Page 23
         Collection Actions Were Not Always Pursued on
     Cases Returned From the Private Debt Collection Program



                                                   Appendix VI

Management’s Response to the Draft Report




                                                         Page 24
    Collection Actions Were Not Always Pursued on
Cases Returned From the Private Debt Collection Program




                                                    Page 25
    Collection Actions Were Not Always Pursued on
Cases Returned From the Private Debt Collection Program




                                                    Page 26
    Collection Actions Were Not Always Pursued on
Cases Returned From the Private Debt Collection Program




                                                    Page 27
